HHS/OIG, Audit -"Review of Medicare Inpatient Bad Debts at Mercy Catholic Medical Center, Conshohocken, Pennsylvania for Calendar Year 1999,"(A-03-02-00002)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Inpatient Bad Debts at Mercy Catholic Medical Center, Conshohocken, Pennsylvania for Calendar
Year 1999," (A-03-02-00002)
June 7, 2002
Complete
Text of Report is available in PDF format (336 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our audit was to determine if Medicare inpatient bad debts claimed by Mercy Catholic Medical Center (MCMC)
on its cost report for calendar year (CY) 1999 met Medicare requirements.  The MCMC claimed inpatient bad debts of
$543,285.  Our audit found that, for the most part, MCMC claimed inpatient bad debts on its CY 1999 cost report that
met Medicare reimbursement requirements.  We noted some minor exceptions to the amounts claimed and questioned $1,848
in bad debt claims.  We are recommending that MCMC: (1) coordinate with the Fiscal Intermediary (FI) to adjust their
CY 1999 cost report by $1,848 for overstated inpatient bad debts and (2) use the results of our audit to stress to its
employees the need to use correct data in generating Medicare claims.